OFFICE OF INSPECTOR GENERAL



AUDIT OF
USAID/DEMOCRATIC
REPUBLIC OF CONGO’S
DEMOCRACY AND
GOVERNANCE ACTIVITIES
AUDIT REPORT NO. 7-660-09-001-P
NOVEMBER 13, 2008




DAKAR, SENEGAL 

Office of Inspector General


November 13, 2008

MEMORANDUM

TO:    	       USAID/DRC Mission Director, Stephen M. Haykin

FROM: 	        Regional Inspector General/Dakar, Dennis Bryant /s/

SUBJECT:	      Audit of USAID/Democratic Republic Congo’s Democracy and Governance
               Activities (Report No. 7-660-09-001-P)



This memorandum transmits our final report on the subject audit. We have carefully considered
your comments on the draft report and have included them in their entirety in appendix II.

The report includes four recommendations intended to improve the implementation of
USAID/DRC’s democracy and governance activities. In your response to the draft report, you
indicated corrective action plans addressing all four recommendations. Therefore, we consider
that management decisions have been reached on these recommendations. Final action to
close the recommendations should be coordinated with the Audit, Performance and Compliance
Division (M/CFO/APC) upon completion of the planned actions.

I appreciate the cooperation and courtesies extended to the members of our audit team during
this audit.
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective.................................................................................................................. 3 


Audit Findings................................................................................................................. 4 


     Reported Data Should Be Verified and 

     Supporting Documentation Maintained ....................................................................... 6 


     Performance Management Plan 

     Needs to Be Updated.................................................................................................. 7 


     Contractor Performance 

     Should Be Evaluated .................................................................................................. 9 


Other matters .................................................................................................................. 10 


     Disposition of Excess Inventory ................................................................................ 10 


     Deobligation of Unexpended Funds.......................................................................... 11 


Evaluation of Management Comments....................................................................... 12 


Appendix I – Scope and Methodology ........................................................................ 14 


Appendix II – Management Comments ....................................................................... 16 


Appendix III – Democracy and Governance 

Operational Plan Standard Indicators for FY 2007 .................................................... 24

SUMMARY OF RESULTS

This audit, performed by the Regional Inspector General/Dakar (RIG/Dakar), is one in a
series of worldwide audits conducted by the Office of Inspector General. This report
summarizes the results of the audit conducted at USAID/Democratic Republic of Congo
(USAID/DRC) which was designed to determine whether USAID/DRC’s democracy and
governance activities achieved intended results and what the impact has been. (See
page 3.)

USAID/DRC’s democracy and governance program sought to promote peace and
unblock the stalled transition process. Its focus on promoting democracy included rule
of law and human rights, good governance, political competition and consensus building,
and civil society. (See page 2.)

USAID/DRC reported successes in achieving its goals and meeting its intended results
for the majority of its democracy and governance activities during fiscal year (FY) 2007.
These activities made a significant impact in helping the Democratic Republic of the
Congo (DRC) transition to a democracy. Overall, the democracy and governance
program reported achieving 11 of 16 reported results from its FY 2007 operational plan.
However, of the 16 indicators included in the FY 2007 operational plan, the audit team
found complete supporting documentation maintained by implementing partners for 6 of
the reported results. Partial source documentation was available for four additional
indicators. Furthermore, USAID/DRC could not provide results associated with the
remaining six indicators because projects were completed and implementing partners
had closed their offices. Overall, USAID/DRC did not achieve its intended results for the
democracy and governance activities given that for the 10 indicators with supporting
documentation, it met or exceeded intended results for only 6 (60 percent). Although
USAID/DRC met or exceeded only 60 percent of the verified results, the mission had
made a significant impact in helping the DRC transition to a democracy. (See page 4.)

The audit found that USAID/DRC should strengthen controls and procedures related to
the following: (1) verifying and maintaining supporting documentation, (2) updating the
performance management plan (PMP), (3) evaluating contractor performance, and (4)
properly disposing of excess inventory. (See pages 7–11.)

This report includes four recommendations that will improve USAID/DRC’s democracy
and governance program: (1) implement procedures for cognizant technical officers to
periodically verify results reported by partners and maintain supporting documentation
for the reported results (see page 7); (2) update the PMP in alignment with the new post
transition strategy and develop specific procedures that will assign responsibility to
regularly update the document (see page 8); (3) develop a checklist including steps to
perform contractor performance appraisals (see page 10); and (4) prepare and
implement a formal plan to properly dispose of excess inventory associated with expired
awards (see page 11).

Management comments are included in appendix II.




                                                                                    1
BACKGROUND

Since 1997, USAID/Democratic Republic of Congo (USAID/DRC) has supported
Congolese efforts to build peace, reunify the country, and renew the political transition
process through dialogue, reconciliation, and a consensus on the mandate and structure
of a transitional government.

Given the country’s large size and natural resources, as well as a population estimated
at 55 million, the Democratic Republic of the Congo (DRC) is of long-term interest to the
United States. Given its central location in Africa, a stable and peaceful DRC is a source
of regional stability. The DRC has a vast supply of natural resources that has been a
key source of conflict and exploitation for well over a century. If managed in a
transparent and legal environment, those resources present an opportunity for economic
growth that will benefit the population and provide an alternative to war.

Congolese expectations are high for governance reform, following on the success of
2006 presidential and parliamentary elections. Keeping both public officials and citizens
engaged in political processes will be a challenge, but one which has a growing
constituency. Government institutions, weakened by decades of war and
mismanagement, need to be rebuilt. Building local capacity among government workers
and within civil society is fundamental to transforming each area of governance.
USAID/DRC’s democracy and governance program sought to promote peace and
unblock the stalled transition process.

USAID/DRC’s focus in promoting democracy included four program areas of democracy
and governance intervention:

•	 Rule of law and human rights – includes justice system, judicial independence, and
   human rights.
•	 Good governance – covers legislative functions and processes, local government
   and decentralization and anticorruption reforms.
•	 Political competition and consensus building – includes political parties, elections
   and political processes.
•	 Civil society – involves civic participation.

Government Accountability Office (GAO) testimony on March 6, 2008, revealed that in
fiscal years (FYs) 2006 and 2007, seven U.S. Government agencies allocated a total of
$217.9 million and $181.5 million, respectively, for the DRC. Approximately 70 percent
of these funds supported the humanitarian and social development objectives, and
approximately 30 percent supported economic and natural resource management,
governance, and security objectives. As of September 30, 2007, the mission’s active
democracy and governance portfolio included 10 instruments at various stages of
implementation with a total contract value of $29.4 million.

During FYs 2006 and 2007, USAID/DRC’s democracy and governance programs
obligated $12.1 million and in FY 2007 it disbursed $9.7 million.




                                                                                        2
AUDIT OBJECTIVE
As part of a worldwide audit directed by the Office of Inspector General’s Performance
Audits Division, the Regional Inspector General/Dakar performed this audit to answer
the following question:
•	 Are USAID/DRC’s democracy and governance activities achieving intended results
   and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                    3
AUDIT FINDINGS

USAID/Democratic Republic of Congo (USAID/DRC) reported on 16 indicators included
in its operational plan for democracy and governance activities for fiscal year 2007 (see
appendix III) and reported meeting or exceeding 11 of these 16 intended results.
However, of the 16 indicators reported, the audit team found adequate source
documentation at partner offices for 6 of the reported results and verified that 4 of the
indicators had met or exceeded intended results. Partial source documentation was
available for four additional indicators, and the audit team verified that two of the
indicators had met or exceeded intended results. However, USAID/DRC could not
provide results associated with the remaining six indicators because projects were
completed and implementing partners had closed their offices, and USAID/DRC’s
democracy and governance office did not maintain supporting documentation. Overall,
USAID/DRC did not achieve its intended results for the democracy and governance
activities given that for the 10 indicators with supporting documentation, it met or
exceeded intended results for only 6 (60 percent). Furthermore, USAID/DRC, through
an oversight, did not establish targets for 1 of the 16 indicators.

Although USAID/DRC met or exceeded only 60 percent of the intended results, the
mission had made a significant impact in helping the Democratic Republic of the Congo
(DRC) transition to a democracy.

Significant program elements from the operational plan included the following:
• Elections and political processes
• Local government and decentralization
• Anticorruption
• Civil society

Selected significant activities conducted by USAID/DRC under these program elements
and their accomplishments are discussed below.

Elections and Political Processes – After intense presidential and national assembly
elections in FY 2006, USAID continued to support the election process in FY 2007. The
election process included presidential run-off, provincial assembly, traditional chief,
gubernatorial, and senatorial elections. USAID-supported activities included voter
education, political party poll-watcher training, provincial-level consultative groups, and
development of quick reference materials for election dispute procedures to clarify
procedures for increased transparency and participation.

Local Government and Decentralization – In FY 2007, DRC provincial deputies and
governors were elected for the first time in 40 years. However, the newly elected local
governments lacked the basic tools to function. USAID provided logistical support as
well as training for the local governments. USAID also cosponsored a National
Decentralization Forum to counter a controversial law introduced by the minister of
interior. In addition, USAID supported Democracy Support Centers in the provinces to
link civil society with the newly elected local officials.

Anticorruption – In 2007, DRC ranked nearly worst (168th out of 180 countries) on
Transparency International’s Corruption Perceptions Index. To counter this perception


                                                                                     4
and to improve public perception of the newly elected government, USAID addressed
the issue of corruption implicitly by incorporating anticorruption elements in each
supported activity. In addition, USAID specifically targeted corruption through a 4-year
program to revive trade by reducing illegal taxes on river trade routes. USAID activities
empowered local anticorruption committees with legal and civic education, negotiation
skills, communications equipment, and small grants, and linked these committees by
two-way radio in four provinces.

Civil Society – USAID civil society assistance in 2007 focused on voter education for
elections, civic education on post-elections institutions, awareness-raising education on
key governance issues, and reform advocacy. USAID increasingly focused on networks,
bringing together multiple groups for like-minded programs such as civic education,
human rights, or anticorruption. The centerpiece of these programs was the presence of
regional democracy resource centers in Kinshasa, Lubumbashi, Mbuji-Mayi, Goma, and
Kikwit. These centers provided information services, training, and meeting space to local
political parties and civil society members.




“Search for Common Ground” radio program production studio in Kinshasa, DRC. The studio
produces programs with themes of repatriation and transition to permanent governance for
rebroadcast by partner radio stations in all provinces around the country. Photo taken by OIG
auditor on April 18, 2008.

Mission staff attributed not meeting some of its intended results to two primary reasons:
staffing challenges and timing of the operational plan reporting requirements. Mission
staff also expressed concerns about the operational plan’s ability to capture program
achievements because of its primary emphasis on output-level reporting.

Although a performance management plan (PMP) is not required for formal reporting,
management can use a PMP as a tool to internally assess progress toward achieving
intended results. The audit team attempted to determine the status of the intended


                                                                                                5
results for the indicators included in the democracy and governance PMP, but found that
the results for the PMP were not regularly updated or used for monitoring progress.

The following sections include findings to improve the program’s performance monitoring
system as well as opportunities to improve the program’s effectiveness.

Reported Data Should Be Verified and
Supporting Documentation Maintained

  Summary: Results reported in the operational plan performance report were not
  verified and supporting documentation was not maintained. Automated Directives
  System (ADS) 203.3.5.2 provides guidance on data verification, and USAID’s
  Cognizant Technical Officers Guidebook on USAID Acquisition and Assistance
  states that cognizant technical officers (CTOs) are responsible for ensuring the
  accuracy of all reports submitted by their implementing partners. Reported results
  were not periodically verified because the indicators being reported were different
  from the targeted indicators included in implementing partners’ work plans. Plus,
  the mission did not have a process in place to verify the results being reported.
  Further, other priorities, such as providing daily program guidance to implementing
  partners, hindered efforts to review and verify the reported results. As a result,
  USAID/DRC is vulnerable to using unreliable data, which could lead to incorrect
  conclusions on the progress of the program’s activities.

The democracy and governance team could not provide evidence that the supporting
documentation for the results reported in the operational plan was verified; the mission
did not maintain such documentation. Of the 16 indicators included in the FY 2007
operational plan performance report, implementing partners maintained complete
supporting documentation for 6 of the reported results. Partial source documentation
was available for four additional reported results. However, the mission could not
provide the audit team with documentation to verify the reported results associated with
the remaining six indicators because projects were completed and implementing
partners had closed their offices, and the mission had not maintained supporting
documentation.

ADS 203.3.5.2 states that the operating unit should be aware of the strengths and
weaknesses of its data and the extent to which the data can be trusted to influence
management decisions.      Additional guidance is provided in USAID’s Cognizant
Technical Officers Guidebook on USAID Acquisition and Assistance, which states that
CTOs are responsible for ensuring the accuracy of all reports submitted by their
implementing partners.

According to the democracy and governance team, other priorities such as providing
day-to-day program guidance and attending meetings with the implementing partners
prevented them from verifying source documentation maintained by partners or spot-
checking data submitted for inclusion in the reported results. Hence, the team relied on
partners’ quarterly reports or e-mails in preparing their reports. The democracy and
governance team further stated that the operational plan reporting guidance was issued
after the start of the fiscal year. Consequently, they could not modify agreements in time
to incorporate the operational plan indicators into the partners’ work plans. In effect,


                                                                                        6
reportable indicators did not always match those reported by the partners and the
mission did not have a process in place to verify results being reported. For FY 2008,
USAID/DRC has incorporated the operational plan indicators into partners’ agreements
as part of their work plans.

USAID/DRC was able to provide documentation supporting only 6 of the 16 indicators
included in the FY 2007 operational plan. Without a proper review of supporting
documentation, the accuracy of reported results cannot be determined, which could lead
to incorrect conclusions on the progress of the program’s activities. Periodic validation
through spot checks would enhance the integrity of the data collected for the reported
indicators and ensure that reported results were accurate and supported. Maintaining
supporting documentation for the indicators included by the mission in the operational
plan would increase credibility by providing an audit trail for the reported information.
Therefore, this audit makes the following recommendation.

     Recommendation No. 1: We recommend that USAID/Democratic Republic of
     Congo prepare and implement procedures for cognizant technical officers in its
     Democracy and Governance Office to periodically verify results reported by
     partners through spot checks of the reported results and maintain supporting
     documentation for the results achieved for operational plan indicators.

Performance Management
Plan Needs to Be Updated

    Summary:       The USAID/DRC Democracy and Governance performance
    management plan (PMP) was not updated and results were not used to
    systematically assess program progress and impact. According to ADS 203.3.4.6,
    PMPs should be updated regularly with new performance information as programs
    develop and evolve. In addition, the ADS guidance states that performance
    information should be used systematically to assess progress in achieving results
    and to make management decisions. The transitional nature of activities conducted
    to assist DRC through the difficult election period, staffing challenges, and other
    operational requirements such as day-to-day oversight of activities hindered efforts
    to update the PMP. This resulted in increased risk of ineffective monitoring of
    overall program progress and of not taking appropriate action to meet intended
    objectives.

A performance management plan is an important tool used to plan and manage the
process of assessing and reporting progress toward achieving a strategic objective. The
USAID/DRC Democracy and Governance PMP for FY 2004–2008 was developed in
October 2004 but was not updated as necessary to reflect changes in strategy or
activities. Results associated with the PMP’s intended results were neither updated nor
used as a guide in managing overall performance. The overall strategic objective (SO)
for the PMP was “A Successful Transition to Peace and Democratic Governance
Promoted.” This objective was to be achieved through the following four intermediate
results (IRs), which in turn would be realized through a series of intended results
achieved through collaborative activities with implementing partners:

•    Improved local security and stability through conflict management and community


                                                                                           7
   development initiatives.
•	 Timely implementation of the legal framework required for the political transition,
   including elections.
•	 Development and strengthening of democratic institutions and basic political
   processes, including elections.
•	 Increased participation of Congolese society in economic and political decision
   making and government reform.

The PMP was developed in close collaboration with stakeholders, partners, and other
donors, and included SO- and IR-level indicators and baselines and intended results to
the extent possible. The Mission planned to have the PMP field-tested and missing
baselines and intended results collected during the second and third quarters of
calendar year 2004.       However, there was no documentation evidencing the
establishment of baselines and intended results for the PMP indicators.

Further, even though the PMP included a detailed schedule for indicator data collection
by quarter at the SO level as well as for the activities conducted under the four IRs, the
democracy and governance team could not provide evidence that such data were
collected and results updated. In effect, the PMP was not used as a management tool to
monitor overall performance of the strategic objective or to assess impact.

During audit fieldwork, the democracy and governance team began to use the
framework developed under the PMP to update results reported by implementing
partners. However, results were only partially incorporated into the PMP and additional
work is required to make the document a viable management tool.

According to ADS 203.3.4.6, PMPs should be updated regularly with new performance
information as programs develop and evolve, usually as part of the operating unit’s
annual portfolio review process. In addition, the ADS states that performance
information should be used systematically to assess progress in achieving results and to
make management decisions.

The PMP was not updated regularly and not used as a management tool because of the
transitional nature of the activities conducted to assist the DRC through the difficult
election period. In addition, operational requirements such as day-to-day oversight of
activities, attending meetings, and conducting site visits hindered efforts to update the
document. For example, during the implementation period covered by the strategy, the
democracy and governance team at times was required to operate with a staff of two
while providing guidance to implementing partners associated with up to 10 awards.

Without an updated and viable PMP reflecting current strategy and activities, monitoring
of overall program progress may not be effective. Further, without updated indicator
values, the mission increases the risk of not taking appropriate action to meet intended
objectives. Therefore, this audit makes the following recommendation.

   Recommendation No. 2: We recommend that USAID/Democratic Republic of
   Congo update the democracy and governance performance management plan in
   accordance with the new post-transition strategy and develop specific
   procedures to assign responsibility for regularly updating the document.




                                                                                        8
Contractor Performance
Should Be Evaluated

  Summary: Contractor performance was not evaluated formally for a multiyear
  contract in accordance with USAID’s policies. According to ADS 302.3.6.3 and
  Acquisition & Assistance Policy Directive 06-05, evaluation of contractor
  performance is required at least annually and upon contract completion. The
  regional acquisition and assistance officer was aware of the requirement to
  evaluate contractor performance upon contract completion, but the requirement to
  perform annual interim evaluations of the contract was overlooked because of other
  operational requirements. As a result, required information to possibly improve
  acquisition decisions and performance incentives to the contractor was not made
  available.

In 2005, USAID/DRC awarded a multiyear (September 30, 2005, to April 30, 2008)
contract of approximately $6 million. The contract’s purpose was to provide state-of-the-
art expertise to establish effective and legitimate governance in the DRC. The contract
required services to advance the DRC’s transition process until its successful conclusion
with the installation of a new, elected government in June 2006. Through a two-phase
implementation, the contract supported USAID/DRC’s objectives through institutional
strengthening, support for legal and policy reform and implementation, and
reinforcement of the legitimacy of state structures, policies, and functions.

However, the mission did not evaluate the award formally in accordance with USAID’s
policies. ADS 302.3.6.3 and Acquisition & Assistance Policy Directive (AAPD) 06-05
require:

•	 Evaluation of contractor performance at least annually and upon contract
   completion, and
•	 Use of contractor performance information in source selection.

Further, the Government Accountability Office (GAO) has ruled that failure to properly
document contractor performance information and make it available for use in source
selections for the same or similar items is sufficient basis to sustain a protest of a
contract award in a subsequent source selection.

The regional acquisition and assistance officer (RAAO) was aware of the requirement to
evaluate contractor performance upon contract completion, but not the requirement to
perform annual interim evaluations of the contract. The requirement was overlooked
because the democracy and governance program portfolio included mostly grants and
agreements which do not have the performance evaluation requirement and a lack of
local contracting support to monitor performance evaluation requirements. The RAAO
stated that there were plans to hire an acquisition and assistance specialist for DRC, and
agreed that having local acquisition and assistance support would serve to identify and
establish steps for contract performance evaluation requirements as well as other
procurement-related requirements such as closeouts.

Regular, comprehensive, and conscientious performance evaluations will provide the
information needed to make better acquisition decisions and will be a significant


                                                                                        9
incentive to the contractors to provide USAID with desired services. Because of the
importance of contractor performance evaluations to existing and future awards, this
audit makes the following recommendation.

      Recommendation No. 3: We recommend that, in coordination with the Regional
      Acquisition and Assistance Office, USAID/Democratic Republic of Congo
      develop a checklist to include steps to perform the required interim contractor
      performance appraisals.

Other Matters

Disposition of Excess Inventory

     Summary:       Nonexpendable inventory of undetermined value is awaiting a
     disposition decision. Some of the inventory maintained in a warehouse was
     identified as nonoperational. USAID’s Cognizant Technical Officers Guidebook on
     USAID Acquisition and Assistance provides guidance on disposition of property
     during the award closeout process. Excess inventory was not properly handled
     primarily because of multiple award expirations (which happened concurrently),
     uncertainty over future inventory level requirements, and problems during closeout
     procedures. As a result, the excess inventory carries risk of loss or damage and
     further depreciation in value.

A key implementing partner was assigned nonexpendable inventory (mostly office
furniture/equipment and computer equipment) costing more than $900,000 of which
various items have been subsequently classified as nonoperational1 by the partner.
Further, according to the implementing partner’s chief of party, the partner will not need
an undetermined quantity of inventory items in implementing requirements of its new
contract. Some items are currently stored in a rented warehouse. According to
USAID/DRC management, inventory initially assigned to other implementing partners
has been reassigned as a result of closed-out awards. For example, inventory
associated with the democracy resource centers operated by another partner was turned
over to the key implementing partner as a result of activity completion on September 30,
2007, without conducting proper closeout procedures for disposal of the inventory. The
current value and the actual inventory requirements to support existing activities and
new programs were not available. Further, inventory records did not always include the
purchase price or the current carrying value of the inventory items.

USAID’s Cognizant Technical Officers Guidebook on USAID Acquisition and Assistance
provides guidance on disposition of property during the award closeout process, which
includes reconciliation of inventory records and proper disposition in conjunction with the
Regional Acquisition and Assistance Office.

USAID/DRC accumulated excess inventory from multiple award expirations (which
happened concurrently), uncertainty over future inventory level requirements, and
problems during closeout procedures that prevented proper disposition of inventories.
Other competing operational priorities also hindered efforts and prevented proper

1
    Nonoperational items are items that are not suitable for their intended use or purpose.


                                                                                              10
disposal of excess inventory. According to USAID/DRC’s management, several large
awards expired concurrently and excess inventory was maintained owing to uncertainty
in upcoming activity levels and associated inventory requirements for follow-on awards.
In addition, one partner did not perform proper closeout procedures to identify and
dispose of inventory. In another case, the mission curtailed a partner’s activities
because of a higher-than-expected project burn rate, which exhausted funding before
the intended activity completion date. Inventory assigned to this partner was also
unexpectedly reassigned until a disposal decision could be made.

Timely disposal of inventory reduces the risk of loss or damage and further depreciation
in value. Also, warehouse rental costs may be reduced or eliminated. To address the
increased risk and associated costs of carrying excess inventory, this audit makes the
following recommendation.

    Recommendation No. 4: We recommend that USAID/Democratic Republic of
    Congo in conjunction with the Regional Acquisition and Assistance Office,
    prepare and implement a formal plan to properly dispose of excess inventory
    associated with the expired awards.

Deobligation of Unexpended Funds
The audit review of unexpended obligation balances related to the Democracy and
Governance Office revealed that three awards expiring in 2005 and earlier had
unliquidated obligations of $489,194, as shown below:

Table 1: Unexpended Obligated Balances from 2003 to 2005

                    Awardee                          Completion Date   Unliquidated
                                                                         Balance
Consortium for Elections & Political Strengthening       08/15/04              $183,005
IFES/IHRLG Consortium                                    06/30/03               $73,115
Development Alternatives, Inc.                           12/31/05              $233,074
Total                                                                          $489,194

ADS 621.3.17 provides guidance on the review of unexpended obligated balances. The
review should be conducted at least annually to determine the amount of unexpended
obligations remaining for each funding line. According to the ADS, unexpended
obligated balances must be monitored to ensure that the level of funding is consistent
with Agency forward-funding guidelines and that balances are deobligated when no
longer needed for their original purposes.

USAID/DRC periodically reviews its unexpended obligation balances. The democracy
and governance team attributed the outstanding unliquidated balances to other
programmatic priorities and staffing changes, which prevented timely deobligation of
these funds. Mission officials have taken steps to deobligate these funds and have
coordinated with the Regional Acquisition and Assistance Office to address the backlog
of expired but open awards that are awaiting closeout. Therefore, this audit is not
making a recommendation.




                                                                                      11
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/DRC agreed with the four recommendations
and developed action plans to implement each recommendation. The mission’s
comments and our evaluation of them are summarized below.

In response to recommendation no. 1, which recommends the preparation and
implementation of procedures for cognizant technical officers (CTOs) to periodically
verify reported results and maintain supporting documentation, management responded
that it will issue formal guidance in this regard to all CTOs by March 31, 2009. In
addition, management indicated that the mission instituted a requirement in January
2008 for all staff to complete trip reports for each field visit, including a review of relevant
data quality assessments for indicators.

Responding to recommendation no. 2, which recommends updating the performance
management plan (PMP) and developing specific procedures to assign responsibility for
the document to be regularly updated, management said it submitted a PMP related to
the Country Assistance Strategy under the “F” framework. Management added that this
plan was sent to Washington, DC in September 2008 for approval. The mission further
stated that it will put the new PMP in place by March 31, 2009, and issue a mission order
on the maintenance of the PMP to ensure that it is being used, monitored and updated
regularly.

For recommendation no. 3, which recommends that the mission, in coordination with the
Regional Acquisition and Assistance Office, develop a checklist with steps to perform
required interim contractor performance appraisals, management responded that a
checklist would be in place by January 31, 2009. Management further indicated that it
would complete the contractors’ performance report for the closed Development
Alternatives Inc. contract by December 31, 2008.

In response to recommendation no. 4, which recommends that the mission, in
conjunction with the Regional Acquisition and Assistance Office, prepare and implement
a formal plan to properly dispose of excess inventory associated with the expired
awards, management stated that it has disposed of all property associated with awards
closed in fiscal year (FY) 2007 except for the property in Kikwit associated with the
Consortium for Elections and Political Processes award. The Government of the
Democratic Republic of the Congo has seized this property because of litigation,
preventing its disposal. Nevertheless, management’s actions and efforts reflect its
agreement and efforts to comply with this recommendation. Furthermore, management
stated that it had developed internal recommendations for future project closeouts based
on the democracy and governance team’s FY 2007 closeout experience, and sought
revised guidance from the regional acquisition and assistance officer and regional legal
advisor on nonexpendable property.

Based on management’s comments and their proposed actions, we consider that
management decisions have been reached on the four above-mentioned



                                                                                         12 

recommendations.      Final action should be coordinated with M/CFO/APC upon
completion of the planned actions.

In addition, management provided supplementary comments concerning our draft report.
Where appropriate, the supplementary comments were considered in the preparation of
the final audit report. Appendix II contains management comments in their entirety.




                                                                                 13
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Dakar (RIG/Dakar) conducted this performance audit in
accordance with generally accepted Government auditing standards to determine if
USAID/Democratic Republic of Congo’s democracy and governance activities were
achieving intended results and what the impact of the program has been. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on the audit objective. Audit fieldwork was conducted
at USAID/DRC from March 31 through April 18, 2008. The audit covered the period from
October 1, 2006, through September 30, 2007.

In planning and performing the audit, we assessed management controls related to
program oversight, compliance with applicable rules and regulations, and review of
performance measures and indicators. Specifically, we obtained an understanding and
evaluated (1) the fiscal year (FY) 2007 operational plan, (2) the performance monitoring
plan, (3) the mission’s Federal Managers Financial Integrity Act of 1982 assessment, (4)
the oversight performed by cognizant technical officers, (5) performance measures, (6)
actual performance results, and (7) data quality assessments. We also conducted
interviews with key USAID/DRC personnel and implementing partners. We conducted
the audit at USAID/DRC, located in Kinshasa, Democratic Republic of the Congo, and
performed site visits to implementing partners and activities in Kinshasa. Owing to travel
restrictions and the timing of ongoing activities, we did not conduct site visits in other
regions. Plus, due to the timing of our fieldwork, many activities were completed and
records had been transferred to partners’ headquarters and other locations outside of
the DRC. We requested these records in advance as part of our audit process, but
USAID/DRC was unable to provide them to us. We have noted this in the report.

We reviewed the 16 democracy and governance program indicators included in the
FY 2007 operational plan. We also selected reported results from implementing partner
quarterly reports and performance monitoring plans to evaluate the accuracy and
fairness of the reported accomplishments. During FYs 2006 and 2007, USAID/DRC’s
democracy and governance program obligated $12.1 million and in FY 2007 it disbursed
$9.7 million.

Methodology
To answer the audit objective, we reviewed the 2007 operational plan and the
associated performance report. We also reviewed ongoing activities and reported results
from implementing partner quarterly reports and work plans through March 31, 2008. We
could not review results associated with the performance management plan since it was
not updated or used to monitor results. The democracy and governance program
reported results for 16 standard indicators in FY 2007 per the operational plan.




                                                                                   14 

For indicators with available supporting documentation we tested performance results
and compared reported information to documented results (progress reports, participant
training lists, draft laws, etc.) to conclude whether democracy and governance activities
had achieved their intended results. We limited our conclusion to 10 indicators with
adequate full or partial supporting documentation. We also judgmentally selected and
tested reported results from implementing partners’ quarterly reports by reviewing
source documentation to determine adequacy and accuracy of support for reported
results. We concluded that the mission would meet its intended results if it achieved at
least 80 percent of its planned targets.

In addition, we selected seven active agreements with significant obligations and
disbursements during our audit period. For the seven agreements, we reviewed the
implementing partners’ agreement documents, progress reports, and work plans to
determine if activities were conducted in support of agreed upon statements of work.

We reviewed applicable laws and regulations, and USAID policies and procedures
pertaining to USAID/DRC’s democracy and governance program, including the mission’s
2007 Federal Managers Financial Integrity Act of 1982 assessment; Foreign Assistance
Act of 1961, section 116 (e); USAID guidance; and Automated Directives System
chapters 200, 201, 202, 203, and 302.

We also conducted interviews with USAID/DRC’s democracy and governance cognizant
technical officers, the regional acquisition and assistance officer, financial analysts,
program office officials, and implementing partners to determine (1) the progress of
activities, (2) how targets were established, and (3) controls over programmatic and
financial reporting.




                                                                                      15
                                                                            APPENDIX II 




MANAGEMENT COMMENTS



                                     DEMOCRATIC REPUBLIC OF CONGO


To: 	          Regional Inspector General/Dakar, Dennis Bryant

From: 	        USAID/DRC Mission Director, Stephen M. Haykin

Date: 	        October 27, 2008

Subject: 	    Audit of USAID/DRC Democracy and Governance Activities (Report No.
              7-660-08-00X-P)


The USAID/DRC Mission would like to thank the RIG/Dakar audit team for its work in the
DRC and recommendations for improving performance management. The USAID/DRC
Democracy and Governance (DG) portfolio is complex and implemented in a dynamic,
evolving environment. It involves awards in each of the four Operational Plan (OP)
program areas for Governing Justly and Democratically. The Mission agrees with the
recommendations, with certain caveats. Actions for each of the recommendations are
included below. The Mission submits the following specific comments on the RIG Audit
Report findings and conclusions.

Comments on Recommendations

Reported Data Should Be Verified and Supporting Documentation Maintained

Recommendation No. 1: We recommend that USAID/Democratic Republic of Congo
prepare and implement procedures for cognizant technical officers in its Democracy and
Governance Office to periodically verify results reported by partners through spot checks
of the reported results and maintain supporting documentation for the results achieved
for operational plan indicators.

The Mission agrees with this recommendation. It will issue formal guidance to all
Cognizant Technical Officers (CTOs) in this regard by March 31, 2009.

In January, USAID/DRC/DG instituted a requirement for all staff to complete
comprehensive trip reports after each field visit. These include a review of relevant data
quality assessments (DQAs) for indicators, a review of compliance with environmental
regulations, as well as a review of any other issues that may affect program
implementation. Whenever possible, staff photographs sites visited and events attended


                                                                                   16 

or photocopies data source documents as additional records of their trip (see attached
template).

Performance Management Plan Needs to Be Updated

Recommendation No. 2: We recommend that USAID/Democratic Republic of Congo
update the democracy and governance performance management plan in accordance
with the new post transition strategy and develop specific procedures to assign
responsibility for regularly updating the document.

The Mission agrees with this recommendation, noting, however, that the Performance
Management Plan (PMP) should relate to the new Country Assistance Strategy (CAS)
under the “F” framework. This was submitted in September 2008 by the Mission to
Washington, D.C. for approval. The Mission will put into place a new PMP by March 31,
2009. It will further issue a Mission Order on the maintenance of the PMP to ensure it is
being used, monitored and updated at regular intervals.

The Mission included the design of a new PMP into the scope of work for the elaboration
of its two new major programs – justice and governance. The justice program design
TDY in February-March resulted in a detailed PMP, including planned future activities
and on-going activities with current awards. The PMP was included in the subsequent
Request for Task Order Proposals, and now these indicators are in the contract. The
CTO is now working with the implementer to ensure these indicators are carried forward
properly into the contract’s work plan and PMP (due in the first quarter of FY 2009). The
Governance Program design team is currently in-country; a detailed draft PMP is
expected as a deliverable by December 2008. This will be included in the solicitation
and subsequent award.

As part of its strategic planning, the Mission engaged a two-month TDY from June-
August to work with the team on options for its PMP for the DG program. As the CAS,
supplemental funding levels and programs for governance and justice had not yet been
finalized, the TDY recommendations are now being adjusted to the final strategy and
current procurement plan.

Contractor Performance Should Be Evaluated

Recommendation No. 3: We recommend that, in coordination with the Regional
Acquisition and Assistance Office, USAID/Democratic Republic of Congo develop a
checklist to include steps to perform the required interim contractor performance
appraisals.

The Mission agrees with this recommendation. A checklist will be in place by January
31, 2009. By December 31, 2008 it will complete the contractor performance report for
the closed DAI contract.

Disposition of Excess Inventory

Recommendation No. 4: We recommend that USAID/Democratic Republic of Congo in
conjunction with the Regional Acquisition and Assistance Office, prepare and implement



                                                                                      17
a formal plan, to properly dispose of excess inventory associated with the expired
awards.

The Mission agrees with this recommendation.

All property associated with awards closed in FY 2007 has been disposed of properly
with RAAO approval. The only exception to this is the property in Kikwit from the
Consortium for Elections and Political Processes (CEPPS) award (see below for detailed
comments).

The DG team used its experiences with end of FY 2007 close-outs to develop internal
recommendations for future project close-outs. For this reason, the close-out of several
other awards this year went more smoothly. Furthermore, USAID/DRC sought revised
guidance from the RAAO and Regional Legal Advisor (RLA) on non-expendable
property, so that it no longer handles NXP valued at less than $5000 per item (previous
guidance from the RAAO had been to dispose of all items, if aggregate value per award
was at or above $5000). Also, new awards include more explicit language on inventory
management, and this is a specific topic in post-award RAAO/CTO/Partner briefings.

Comments on Findings and Recommendations

With regards to the 2007 Operational Plan Performance Report (OPPR), an overall
impediment to results reporting stemmed from the “F” guidance. Worldwide, the OP DG
indicators were not finalized until after the first quarter of FY 2007. Most of the
USAID/DRC/DG portfolio was awarded in the last quarter of FY 2006. As all awards but
one (DAI) were assistance instruments, the Mission could not require additional
reporting after negotiation and award. Therefore, most of the awards did not include OP
indicators in their work plans. Rather, the Mission relied on the goodwill of partners to
share the data with them (which all did). The Mission aggregated data itself from the
quarterly and other reports in order to quantify results. It also ensured that data from
multiple partners for a single indicator met the same definition. Although they are a best
practice for the Agency, Data Quality Assessments (DQAs) could not be performed in a
timely manner for FY 2007 indicators because of the above reasons. The Mission met
this standard for FY 2008.

The Mission’s CTOs and Activity Managers regularly confirm trainings, participation at
events, advocacy campaigns and other activities through site visits, document reviews
and attendance at events. With the requirement to complete trip reports (adopted in
January 2008), staff records its monitoring visits outside of Kinshasa. Previously, staff
looked at these documents, but did not collect copies for its own files, which is consistent
with ADS 203.3.5 guidance for review of secondary data. Nonetheless, in verifying the
2007 OP performance report results, DG staff did ask for and receive copies of
supporting documentation to substantiate data for several of the indicators, e.g. political
party training and legislative strengthening training. According to ADS 203.3.5.3, the
Mission is not bound to maintain copies of source documents in its offices, as data
tracked is from a secondary and not a USAID primary source. In such cases, DQAs
assess “the apparent accuracy and consistency of the data. In many cases, the data are
not under USAID control and the Operating Unit, therefore, may not have the right to
audit or investigate the quality of data in depth.” The requirement of maintaining source
documents would have been applicable to the Mission, had it contracted out directly the


                                                                                         18
data collection process or collected them itself. Therefore, it appears that maintaining
source documents in USAID/DRC is not a rule applicable in this audit.

At the time of the audit in March and April 2008, many of these programs were no longer
operational. At program close, supporting documentation was transferred to partner
headquarters. It is available for review at any time to substantiate the indicator data
claimed on the Mission’s Operational Plan. However, as several of the partners
managed other awards in the DRC, the auditors were able to interview some staff and
view supporting documentation for reported results. Others, unfortunately, were not
available in-country because their programs had ended. By the time of the audit
mission, IFES had closed its CEPPS agreement and had boxed documents for storage
and transfer to headquarters; post-CEPPS, NDI had closed its offices completely; DAI,
Global Rights and ASF were closing old awards and transitioning to new USAID-funded
awards; Innovative Resources Management was closing its offices; and Search for
Common Ground was still implementing the award in question, as well as a new USAID-
funded program; and, the Carter Center had closed its elections award.

Appendix III only shows the targets and verified results. There is no column for the
Mission’s own reported results achieved as per its OPPR. Without this information, it is
difficult to see the gap in targets, Mission-reported results and verified results. Several
indicators were identified in the audit report as “not available for verification”. It would be
clearer to show why they were not available for verification: was it due to the lack of
supporting documentation at the Mission; because partners had closed their offices
and/or closed the USAID programs; or because the indicator was dropped between the
original OP and the performance report? Each of these is a different case. Additional
clarification on these indicators is attached.

The USAID/DRC/DG PMP covers FY 2004-2008 under Strategic Objective (SO) Three.
During this time, the Mission had three different country assistance strategies. With the
advent of the new Foreign Assistance “F” guidelines, the SO framework was dropped.
The program now falls under the Governing Justly and Democratically objective of the
OP. During the transition between SOs and “F”, the Mission held off updating the PMP
pending finalization of the “F” framework. While the old PMP technically extended until
FY 2008, it had only been partially updated since its inception. The DQAs and results
tracking chart were not updated. Nevertheless, programs continued to work towards
these results. Recognizing this management weakness, the Mission updated the results
tracking chart during the auditors’ visit. However, due to scheduling conflicts with the
team during their last few days in-country, the DG Team and auditors were not able to
formally review the chart together.

The DG Office went through an extraordinary closeout period for multiple awards at the
end of FY 2007. The limitations and constraints identified in the audit report explain
much of the context. Since then, the warehouse for temporary inventory storage was
closed in December 2007. All inventory was redistributed with RAAO approval to
development partners. USAID/DRC believes that the value of the items transferred to
DAI was over-estimated (the report cites $900,000). This is not the value of the items
involved in the transfer of assets at the end of FY 2007. The vast majority of these items
are valued at less than $5000. Moreover, the sum total of the NXP would likely be much
less, as some of it was purchased as far back as 1998 under previous awards and much
of it had been used for at least several years. Unfortunately, partners did not keep
accurate records of purchase price and fair market value at program close. Much of this


                                                                                            19
inventory was transferred within a single partner between original and follow-on awards.
When the CEPPS program closed in 2007, the CTO and RAAO repeatedly asked for
accurate pricing data; the partner could not comply.

The inventory transferred to DAI from CEPPS in Kinshasa and other locations
throughout the country has been transferred to other partners or incorporated into new
USG awards. The one exception is the inventory that was illegally seized by the
Prosecutor General in Kikwit. This was originally managed by CEPPS, but when their
office in Kikwit closed, a local NGO claimed the property and engaged the Prosecutor
General, who seized the items and locked them in a warehouse. The total fair market
value was estimated at $2,490 in September 2007. The property was intended to be
given to local government for continued use. Despite repeated interventions, USAID
and DAI have not been able to resolve the issue with the Prosecutor General to this day.
This was hampered by the lack of a bilateral agreement with the current Government (a
new bilateral was signed in October 2008). The Prosecutor General recently requested
an additional letter from USAID on this matter; this will be sent by the end of November.

Recommended Clarifications

On page 2, paragraph 4, the summary of USAID/DRC interventions does not adequately
reflect the actual programs. Rather, it lists all of the possible OP elements for each of
the four program areas. In fact, USAID/DRC funded/funds programs from the following
areas and elements:

   1. 	 Rule of law and human rights: justice system, judicial independence, and human
        rights
   2. 	Good governance: legislative function and processes, local government and
        decentralization, and anti-corruption reforms
   3. 	 Political competition and consensus-building: political parties and elections and
        political processes
   4. 	 Civil society: civic participation.


Closing Remarks

USAID/DRC is prepared to provide whatever additional information is deemed
necessary to close the report.




                                                                                      20
Attachment 1: Template trip report

                                 FIELD VISIT CHECKLIST
Date of Report
Dates of Travel
Itinerary/Location(s)

Individuals participating
in visit
Purpose of field site
visit
USAID Partner
Agreement Number

Project(s) being visited

Initial Timeframe of
Project
Extension Timeframes
Total Timeframe

Activities at this field site                     Current status of
(from obligating document)                        each Activity




                                                                      21
Are there PMP indicators   Yes / No
being collected at this
field site?
If yes, which ones?        Data Quality analysis being done this visit?
                           (if yes, attach data quality checklist)
                           Status:




Main issues being encountered at this   Suggested Solutions
location?
Human resources:




Logistics:




Finance:




                                                                          22
Program/Technical:




Draft Success Stories / Case Studies / First Person / Photo and Caption / Before
and After Photo




                                                                                   23
                                                                                       APPENDIX III

  Democracy and Governance Operational Plan Standard Indicators for FY 2007


            USAID/DRC’s Operational Plan                        Intended       Verified       % of Results
                Standard Indicators                              Results       Results         Achieved2
                                                                              Achieved
Full Documentation
(1) Number of laws, regulations, and procedures related
to judicial independence supported with United States               4             4               100%
Government (USG) assistance
(2) Human Rights:
Number of public advocacy campaigns on human rights
supported by USG                                                    5             12              240%
(3) Rule of Law:
Number of information gathering or research activities              5             4                  80%
(4) Governance:
Number of information gathering or research activities              5             5               100%
(5) Political Competition: Number of information gathering
or research activities                                              9             5                  55%
(6) Civic Participation: Number of information gathering or
research activities                                                 9             5                  55%
Partial Documentation
(7) Number of domestic human rights NGOs receiving
USG support                                                        22             1                  4%
(8) Number of national legislators and national legislative
staff attending USG-sponsored training or educational
events                                                            300             32                 10%
(9) Number of local mechanisms supported with USG
assistance for citizens to engage their sub-national
government.                                                        13             40              308%
(10) Civic Participation:
Number of CSO advocacy campaigns supported by USG                   5             6               120%
No Documentation
                                                                                       3
(11) Number of justice sector personnel who received              200           NAV          Not determined
USG training
   Number of women                                                 40            NAV         Not determined
   Number of men                                                  160            NAV         Not determined
(12) Number of people visiting USG-supported legal
service centers serving low-income and marginalized           Target Not
communities                                                   Established        510         Target not set
(13) Number of people affiliated with NGOs that receive
USG-supported anticorruption training                            13,050          NAV         Not determined
(14) Number of electoral administration procedures and
systems strengthened with USG assistance                           24            NAV         Not determined
(15) Number of individuals who receive USG-assisted
political party training                                         13,600          NAV         Not determined
(16) Number of people who have completed USG-
assisted civic education programs                              1,600,000         NAV         Not determined



 2
   The audit concluded that the mission met its intended results if it achieved at least 80 percent of 

 its FY 2007 targets. 

 3
   Documents for these indicators were not available for verification (NAV) at the USAID/DRC 

 democracy and governance office and could not be provided to us. 


                                                                                                24
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig

                                              25
